      U. S. Department of Housing and Urban Development

              Office of Inspector General for Audit

              Inspections and Evaluations Division




Evaluation of HUD’s Management of Real Estate-Owned Properties

                           April 19, 2012


                           IED‐12‐001R
                                          Executive Summary
The Office of Inspector General (OIG), Inspections and Evaluations Division, conducts
independent, objective examinations of U.S. Department of Housing and Urban Development
(HUD) activities, programs, operations, and organizational issues.

We conducted an evaluation of HUD’s management of its real estate-owned (REO)
properties. The objective of our review was to determine whether HUD and its contractors
had adequate controls to ensure that HUD REO properties were properly secured and
maintained.

HUD has outsourced the disposition of its REO inventory to management and marketing
contractors since 1999. Management and marketing contractors manage and market single-
family properties owned by or in the custody of HUD. HUD is in the third generation of the
program (Management and Marketing III), which includes four components: (1) mortgagee
compliance manager, (2) asset manager, (3) field service manager, and (4) oversight monitor. 1

Field service managers are the focus of this evaluation because they are responsible for
providing property maintenance and preservation services that include conducting property
inspections, repairing and securing the property, providing ongoing maintenance (grass
cutting, weed abatement, etc.), and performing cosmetic enhancements intended to increase
the likelihood and speed of the sale of the home. The field service manager communicates
with HUD through its assigned contracting officer and government technical representative.

Our review focused on REO properties in HUD’s inventory as of July 31, 2011, in the State of
Michigan. We judgmentally selected 50 REO properties for review (50 for physical
inspections of exteriors and 30 of 50 for file review). We observed the following issues.

Field service managers did not always correctly report vandalism in the HUD REO data
system, known as P260, and did not always report each vandalism occurrence to local police
departments. As a result, it was difficult to use the P260 to identify where vandalism of
HUD-owned properties occurred, how frequently it occurred in local areas, or the cost to
HUD. When vandalism and other property crimes are not reported to local police
departments, it is less likely that they will devote resources to investigation and prevention of
these crimes.

Also, field service managers did not always inspect REO properties at least once every 14
days as required and did not completely document inspections that were performed. As a
result, they could not always address problems existing at these properties such as unsecured
doors and windows or overgrown lawns.



1
    Field service manager contract, Section C, Performance Work Statement, Section 1.1

                                                        ii
We recommended that the Office of Single Family Housing require that field service
managers complete the data screen provided in the REO data system for all instances of
vandalism or theft and report all such instances to local police departments whether or not
police officers were available to inspect the vandalized properties. We also recommended that
the Office of Single Family Housing reemphasize to field service managers that they must
conduct routine inspections of REO properties at least once every 14 days.

We provided a draft copy of the report to the Office of Single Family Housing on January 24,
2012, and received written comments on February 24, 2012. The Office of Single Family
Housing agreed with our observations and recommendations in the report. The complete text
of the Office of Single Family’s response is included in appendix A.




                                             iii
                                                      Table of Contents


Introduction ................................................................................................................................ 5
Scope and Methodology ............................................................................................................. 6
Observations
Observation 1: Instances of Vandalism Were Not Consistently Reported ................................. 8

Observation 2: Property Inspections Were Not
               Consistently Performed or Documented ............................................................. 8

Other Matters ............................................................................................................................. 9

Recommendations ..................................................................................................................... 10
Comments and OIG’s Response ............................................................................................... 11
Appendixes
           Appendix A – HUD Office of Single Family Housing Comments .............................. 12
           Appendix B – Inconsistent Vandalism Reports for Sampled
                                  Properties in Michigan .......................................................................... 14




                                                                      iv
                                                 Introduction
The Federal Housing Administration (FHA) is responsible for managing and marketing
foreclosed single-family properties conveyed to it by participating lenders. These properties
become part of HUD’s real estate-owned (REO) inventory. HUD’s goals in managing and
marketing REO properties are to promote home ownership, preserve communities, and maximize
the return to the FHA single-family insurance fund.

HUD has been outsourcing the disposition of its REO inventory to management and marketing
contractors since 1999. In 2007, HUD conducted extensive market research concerning industry
best practices regarding the REO asset disposition process before restructuring its REO program.
As a result, it created the third and current generation of the contracting program, referred to as
Management and Marketing III. The program is designed to accomplish the following: 2

      •    Centralize mortgage compliance functions under the mortgagee compliance manager;
      •    Separate the marketing functions performed by contractors called asset managers from
           property management functions performed by field service managers; and
      •    Create an oversight monitor that monitors the performance of its REO portfolio.

Field service managers are the focus of this evaluation. They are responsible for providing
property maintenance and preservation services that include conducting inspections, repairing
and securing properties, providing ongoing maintenance (grass cutting, weed abatement, etc.),
and performing cosmetic enhancements that should increase the likelihood and speed of REO
sales.

Field service managers are monitored and supervised by HUD contracting officers and
government technical representatives. Contracting officers inform relevant parties to the contract
of their roles and responsibilities and resolve performance or payment issues. They also have
authority to amend contract terms, if necessary. Government technical representatives are
responsible for consistent monitoring, communication and evaluation of contractors’
performance, providing technical guidance, and serving as a liaison between contractors (field
service manager) and contracting officers.

A HUD data system, known as P260, serves as the primary system of record for all REO case
management transactions. The system, which features a Web-based portal for data entry, was
implemented in 2010. It is designed to track property disposition activity from acquisition to
sale and also receive data from the Single Family Insurance System, FHA Connection, and the
Single Family Acquired Asset Management System. 3



2
    Field service manager contract, Section C, Performance Work Statement, Section 1.1
3
    Field service manager contract, Section C, Performance Work Statement, Section 3.1.3

                                                         5
P260 allows field service managers to upload inspection documents and photos and to create and
submit expense reimbursement documents for review and approval by HUD. Government
technical representatives use P260 as a major tool to monitor and evaluate field service
managers’ performance.

Statistics

We focused our review on HUD’s REO inventory as of July 31, 2011. At that time, HUD had
48,393 REO properties. As of July 31, 2011, the following five States had the largest
inventories:

State                                               Number of properties
Georgia                                             5,354
Texas                                               4,897
Michigan**                                          2,881
Florida                                             2,480
Ohio                                                2,267
Total                                               17,879
% of total inventory                                37%
**Michigan was the focus of our review.

Under the Management and Marketing III program, HUD awarded 34 field service manager
contracts throughout the country for a period of 5 years (base of 12 months with 4 optional
years). Four of the thirty-four field service manager contracts were awarded to cover the State of
Michigan. The four contractors were

   •   A-Sons Construction, Inc.
   •   Asset Management Services
   •   IEI Tidewater
   • Sigma Construction
                                  Scope and Methodology
The evaluation was performed at HUD’s Washington, DC, headquarters and the Philadelphia
Homeownership Center. We interviewed HUD staff to gain an understanding of the
Management and Marketing III program, focusing on HUD’s and the field service managers’
responsibilities for the day-to-day management of the program. We also reviewed applicable
HUD requirements.

The review was limited to REO properties in HUD’s inventory as of July 31, 2011. We further
narrowed the scope of our review to the 1,226 properties in Michigan within counties closest to




                                                6
the Office of Inspector General (OIG) field office in Detroit that were in steps 1 through 6 of the
disposition process. HUD’s REO process consists of ten steps in total. 4

The State of Michigan was selected due to its large number of REO properties. REO properties
in Michigan are managed by HUD’s Homeownership Center in Philadelphia.

To determine whether HUD and its contractors had adequate controls to ensure that HUD REO
properties were properly secured and maintained, we judgmentally selected 50 REO properties
and conducted the review in two parts:

    1. The first part consisted of a review of HUD records related to 30 randomly selected REO
       properties. The records reviewed included inspection reports, transmittals, invoices, and
       supporting documentation submitted to HUD by August 31, 2011.

    2. The second part consisted of a physical inspection of 50 REO properties. These
       inspections were limited to the exteriors of the properties. Six of the fifty homes were not
       inspected because either the home was no longer in HUD’s inventory or the home had
       been demolished by the time of the inspection.

We conducted the evaluation in accordance with the Quality Standards for Inspection and
Evaluation, issued by the Council of the Inspectors General on Integrity and Efficiency.




4
  The following are the ten steps used by HUD to acquire, manage and dispose of REO properties:
Step 1- Property Acquisition;
Step 2- Receipt of Property Condition Reports and Entry of appraisal data;
Step 3- Properties "Held-Off Market" remain in Step 3;
Step 4 –Direct sale to non-profit or city entity;
Step 5 - Ready to List - Properties are ready to list for sale; and
 Step 6 - Listed for Sale.
Step 7 - Preliminary Acceptance of Sales Offers;
 Step 8 - Sales Offer Accepted;
Step 9 - Sales Closing Package Received; and
Step 10 - Sale Closed and Reconciled.



                                                       7
                                         Observations
Observation 1 – Instances of Vandalism Were Not Consistently Reported

Field service managers did not always correctly report vandalism occurrences in the REO data
system as required and did not always report each occurrence to local police departments. The
result of this lax reporting was that HUD could not easily identify where vandalism of HUD-
owned properties occurred, how frequently it occurred in a given area, or the cost to HUD.
When vandalism is not reported to local police, local law enforcement is less likely to make
investigation and prevention of this crime a priority.

The field service manager’s contract requires that each occurrence of vandalism be documented
in the REO data system, P260. The system has a separate vandalism screen that includes fields
for a description of the vandalism and the estimated damage amount. HUD REO managers told
us that, although it is not specifically required by contract, field service managers have been
asked to file reports of vandalism occurrences with local police departments.

Although field service managers’ routine inspection reports indicated that HUD-owned
properties had been vandalized, the information was generally not documented on the vandalism
screen in the data system. Further, instances of vandalism were generally not reported to local
police departments. Field service managers’ routine inspection reports indicated that six of thirty
properties in our sample had been vandalized during the period. One property was vandalized
three times, another two times. In all, there were a total of nine separate instances of vandalism
at the six properties. The reports noted that these events resulted in the theft of copper parts,
appliances, household fixtures, and water heaters as well as extensive fire damage. However, the
field service manager documented the vandalism in P260, using the vandalism screen for only
one of the nine occurrences. In addition, the field service manager reported the vandalism to the
local police department in only four instances. HUD REO officials told us that many local
police departments will decline to come out to a vandalized property to take a report, citing the
need to focus limited resources on violent crime. Appendix B lists the vandalism incidents at the
six properties, indicates what was stolen or broken after each incident, and shows whether the
incident was reported to HUD and the local police.

Observation 2 - Property Inspections Were Not Consistently Performed or Documented

Field service managers did not always inspect HUD-owned properties at least once every 14
days or completely document the inspections that were performed as required. As a result,
HUD-owned properties were potentially less secure than they otherwise would have been, and
property damage caused by vandalism and weather conditions was not always documented
thoroughly and in a timely manner.




                                                8
The performance work statement in the field service managers’ contract 5 requires, at a minimum,
that the field service manager inspect each property once every 2 weeks and report the results on
the property inspection form. We reviewed routine 6 inspection forms from all four field service
managers for a sample of 30 REO properties. Although field service managers generally
completed two inspections each month at HUD-owned properties, the number of days elapsed
between inspections often exceeded 14. A review of inspection reports related to 30 properties
during the review period indicated that inspections related to 25 properties were overdue at least
once. At 9 of these 25 properties, there were 5 or more overdue inspections. All four of the field
service managers had overdue inspections. Many inspections were overdue from 5 to as many as
14 days. When inspections are not conducted often, property damage and insecure conditions
caused by severe weather and vandalism may go unaddressed for longer periods. In addition,
there is less assurance that exterior maintenance, especially grass cutting, has taken place when
inspections are performed infrequently. Failure to address problems with the physical condition
and maintenance of REO properties will have a negative effect on the prices that HUD ultimately
obtains.

In addition, inspection forms prepared by one of the four field service managers included in our
review were not always complete. None of the inspection forms submitted by this contractor had
been fully completed. Incomplete items included the inspectors’ signature line and the date last
inspected, and the inspection status was not fully explained in the comments section.

Incomplete inspection forms do not provide HUD with an accurate or complete report regarding
the condition of the property or status of damages and repairs at the time of the review.

                                               Other Matters

Field service managers did not always submit invoices for “pass-through” expenses promptly.
Pass-through expenses are charges incurred by field service managers for goods and services
provided by third-party vendors that are directly reimbursable by HUD. Pass-through expenses
include utility bills, homeowners association fees, eviction costs, demolition and repairs, some
vandalism-related costs, etc. There is no requirement for submission of pass-through bills for
reimbursement within an established timeframe. However, consideration should be given to
instituting a penalty for late submission of bills. Also, timely submission of bills should be
included in the overall assessment of contractor performance. We noted instances in which pass-
through invoices were submitted more than 100 days after they had been paid.




5
 Field service manager’s contract, Section C, Performance Work Statement, Section 5.2.3.2
6
 In addition to completing routine inspection reports a field service manager must also complete a Property
Condition Report for each REO property within the first three days after assignment by HUD.

                                                        9
                                     Recommendations
We recommend that the Office of Single Family Housing

  1. Require that all field service managers complete the P260 data screen provided for
     reporting vandalism whenever they note instances of vandalism or theft during routine and
     other inspections of REO properties.

  2. Require that all field service managers report instances of vandalism and theft at HUD-
     owned properties to local police departments. If police officers are not able to visit and
     inspect the subject properties due to more urgent matters, field service representatives
     should document the damage and file reports at local police stations.

  3. Reemphasize to field service managers their obligation to conduct routine inspections at
     least once every 14 days. When field service managers show a pattern of not complying
     with this contract obligation, they should not be eligible for additional contracts.




                                               10
                             Comments and OIG’s Response

We provided a draft copy of the report to HUD’s Office of Single Family Housing on January
24, 2012. The Office of Housing’s response was received on February 24, 2012. HUD agreed
with our observations and concurred with our recommendations. Based on this response the
recommendations are considered closed. However, we may perform a follow up review to verify
that corrective actions have been implemented.




                                            11
Appendix A - HUD Office of Single Family Housing Comments




                           12
13
        Appendix B - Inconsistent Vandalism Reports for Sampled Properties in Michigan
                                                                                 Property      P260
                                           Date (per                            condition   vandalism
     #                             Field    routine                               report      screen         Police
Vandalism     #                   service inspection                             updated       used        contacted,
incidents Properties     Case #   manager    forms)      Type of vandalism       (yes/no)    (yes/no)     report filed                Notes

                                                                                                                           Per government technical
                                                                                                                           representative,
                                                                                                                           updated property condition

                                                                                                                          Inspection report not
                                                                                                                          required. Vandalism
                                                                                                        Not contacted and documented on routine
    1          1       261-758629 A-Son's      4/6/2011 Side door broken     No             No          no report filed   inspection reports.
                                                        Plumbing in bathroom                            Not contacted and Vandalism documented on
    2          2       261-896188 A-Son's      6/3/2011 removed, interior    Yes            Yes         no report filed   routine inspection reports.

                                                                                                        Contacted and      Vandalism documented on
    3          3       264-000063 A-Son's     4/20/2011 Copper missing         No           No          report filed       routine inspection reports.

                                                                                                        Contacted and      Vandalism documented on
    4                                          5/3/2011 Water heater missing   No           No          report filed       routine inspection reports.
                                                        Additional copper
                                                        missing; front door                             Contacted and      Vandalism documented on
    5                                          8/9/2011 unsecured              No           No          report filed       routine inspection reports.

                                                        Left side door found                            Contacted but no Vandalism documented on
    6          4       261-563130 SIGMA       7/18/2011 breached - no theft.   No           No          report filed     routine inspection reports.
                                                        Missing bathroom
                                                        vanity, faucet, shower
                                                        head, furnace, and                              Not contacted and Vandalism documented on
    7          5       261-827500 SIGMA        8/3/2011 water heater           No           No          no report filed   routine inspection reports.
                                                                                                                          Vandalism documented on
                                                                                                                          routine inspection reports.
                                                        Interior vandalism -                                              The field service manager
                                                        kitchen and upstairs                                              completed its own
                                                        bathroom; back door                             Not contacted and vandalism report and
    8          6       261-816034 Tidewater   1/10/2011 missing                Yes          No          no report filed   uploaded this to P260.
                                                                                                                          Vandalism documented on
                                                                                                                          routine inspection reports.
                                                        Extensive fire damage                                             The field service manager
                                                        throughout the home -                                             completed its own
                                                        home marked for                                 Not contacted and vandalism report and
    9                                         3/10/2011 demo                  Yes           No          no report filed   uploaded this to P260.




Note: The property condition report is part III of the HUD property inspection report. The
property condition report provides information on the condition of heating, cooling, plumbing,
gas and electrical systems, appliances, and the septic system or well and the existence of any
transferable warranties. It should be updated whenever major changes in systems’ functionality
occur.




                                                                         14
